U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 24, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Kevin R. George v. Denis R. McDonough, Secretary of Veterans Affairs
S.Ct. No. 21-234
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 13,
2021, and placed on the docket on August 17, 2021. The government’s response is due on
September 16, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 18, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0234
GEORGE, KEVIN R.
DENIS R. MCDONOUGH, SEC. OF VA

MELANIE LYNN BOSTWICK
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, NW
WASHINGTON, DC 20005
202-339-8483
MBOSTWICK@ORRICK.COM

